<html>
<title> - IT'S TIME TO REACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 IT'S TIME TO REACT--REAUTHORIZING EXECUTIVE AUTHORITY TO CONSOLIDATE 
           TASK: ESTABLISHING RESULTS AND SUNSET COMMISSIONS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON THE FEDERAL WORKFORCE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 3276

TO PROVIDE FOR THE ESTABLISHMENT OF RESULTS COMMISSIONS TO IMPROVE THE 
 RESULTS OF EXECUTIVE BRANCH AGENCIES ON BEHALF OF THE AMERICAN PEOPLE

                                 AND ON

                               H.R. 3277

TO PROVIDE FOR THE ESTABLISHMENT OF THE SUNSET COMMISSION TO REVIEW AND 
     MAXIMIZE THE PERFORMANCE OF ALL FEDERAL AGENCIES AND PROGRAMS

                               __________

                           SEPTEMBER 27, 2005

                               __________

                           Serial No. 109-111

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
25-616                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
JEAN SCHMIDT, Ohio

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on the Federal Workforce and Agency Organization

                    JON C. PORTER, Nevada, Chairman
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
DARRELL E. ISSA, California          ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas                    Columbia
PATRICK T. McHENRY, North Carolina   ELIJAH E. CUMMINGS, Maryland
------ ------                        CHRIS VAN HOLLEN, Maryland

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Ron Martinson, Staff Director
                Chris Barkley, Professional Staff Member
                       Chad Christofferson, Clerk
            Tania Shand, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 27, 2005...............................     1
    Text of H.R. 3276............................................     6
    Text of H.R. 3277............................................    21
Statement of:
    Johnson, Clay, III, Deputy Director for Management, Office of 
      Management and Budget......................................    41
    Light, Paul C., Paulette Goddard professor of public service, 
      Robert Wagner School of Public Service, New York 
      University; Thomas A. Schatz, president, Citizens Against 
      Government Waste; Maurice P. McTigue, Q.S.O., vice 
      president for outreach, Mercatus Center; and J. Robert 
      Shull, director of regulatory policy, OMB Watch............    55
        Light, Paul C............................................    55
        McTigue, Maurice P.......................................    73
        Schatz, Thomas A.........................................    66
        Shull, J. Robert.........................................    80
Letters, statements, etc., submitted for the record by:
    Johnson, Clay, III, Deputy Director for Management, Office of 
      Management and Budget, prepared statement of...............    42
    Light, Paul C., Paulette Goddard professor of public service, 
      Robert Wagner School of Public Service, New York 
      University, prepared statement of..........................    58
    McTigue, Maurice P., Q.S.O., vice president for outreach, 
      Mercatus Center, prepared statement of.....................    75
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................     4
    Schatz, Thomas A., president, Citizens Against Government 
      Waste, prepared statement of...............................    68
    Shull, J. Robert, director of regulatory policy, OMB Watch, 
      prepared statement of......................................    82


 IT'S TIME TO REACT--REAUTHORIZING EXECUTIVE AUTHORITY TO CONSOLIDATE 
           TASK: ESTABLISHING RESULTS AND SUNSET COMMISSIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 27, 2005,

                  House of Representatives,
      Subcommittee on Federal Workforce and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Hon. Jon Porter 
(chairman of the subcommittee) presiding.
    Present: Representatives Porter, Davis of Illinois, Norton, 
and Mica.
    Staff present: Ronald Martinson, staff director; Chad 
Bungard, deputy staff director; Christopher Barkley, 
professional staff member; Chad Christofferson, clerk; Krista 
Boyd, minority counsel; Tania Shand, minority professional 
staff member; and Teresa Coufal, minority assistant clerk.
    Mr. Porter. I would like to bring the meeting to order. The 
hearing today is entitled, ``It's Time to React--Reauthorizing 
Executive Authority to Consolidate Task: Establishing Results 
and Sunset Commissions.'' I would like to thank everyone for 
being here today.
    I think it is time to get up. I appreciate everyone being 
here today. Really, I think it is very timely based upon the 
current deficit and the current problems we are having funding 
the Federal Government and programs across the country. As a 
member of Government Reform, I think it is also very germane 
that we look closely and look at ways to try to reduce fraud 
and abuse.
    But before we get into the substance of the hearing, I want 
to convey my profound condolences to the victims of Hurricane 
Rita and their families who suffered such great personal loss, 
and those of Katrina. I would also like to acknowledge that 
some of our subcommittee members and witnesses who represent 
flooded areas are unable to be with us today because they are 
back home where they should be, and that is attending to the 
urgent need of their constituents and their families.
    Through the years, Congress has created Federal programs to 
meet pressing needs but has often lacked the big picture 
perspective. The unfortunate consequences are rampant overlap 
and duplication in Federal programs. In 2003, the National 
Commission on the Public Service issued a report entitled, 
``Urgent Business for America,'' and indeed it is urgent 
business.
    The highly esteemed bipartisan commission comprised of 
numerous formerly high ranking officials of the Clinton, 
Reagan, and Bush, Sr., administrations, as well prominent 
Members of Congress from both sides of the aisle, recommended 
that ``A fundamental reorganization of the Federal Government 
is urgently needed to improve its capacity for coherent design 
and efficient implementation of public policy.''
    The Commission found extensive evidence of duplication and 
overlap throughout the Federal Government which resulted in a 
waste of limited resources, an inability to accomplish national 
goals, impediments to effective management, and a danger to our 
national security and defense. This must come to an end. Now 
with hurricane recovery costs escalating, cutting out wasteful 
programs takes on a whole new meaning and is now getting much 
needed congressional attention.
    Members ranging from the Republican Study Committee to 
Minority Leader, Nancy Pelosi, are calling for the costs of the 
cleanup to be offset in the Federal budget. Unfortunately, it 
is often the case that when Congress acts hastily to either add 
or cut programs, the unseen effects are not felt until it is 
too late in many cases. We in Congress need to be thoughtful in 
making considerations of where to trim and what programs we 
should cut. This is where the two proposals that we are 
discussing today can play a very important role.
    First, H.R. 3276, the Government Reorganization and 
Improvement of Performance Act will help us to get a grip on 
wasteful government spending by authorizing the President to 
reorganize and streamline Federal programs and agencies. 
Specifically, the bill will allow the President to propose the 
creation of results commissions for the purpose of reviewing a 
specific program area.
    Once approved by Congress, the results commissions would 
recommend to the President plans for reorganizing duplicate 
Federal program areas. The President would have the option of 
forwarding the recommendations to Congress, which then could 
vote them up or down without an amendment. This proposal has 
been supported by huge majorities of both parties in Congress 
through the years. Similar bills in recent history have passed 
Congress by overwhelming majorities or even at times without 
one dissenting vote.
    Finally, the substance of this proposal was supported by 
the National Commission on Public Service. It is obvious that 
the constituency for this bill is the average American taxpayer 
who rightly expects his or her money to be spent wisely, and we 
owe them just that.
    The other bill we will consider is H.R. 3277, the Federal 
Agency Performance Review and Sunset Act, or the Sunset Act. 
This bill would establish a sunset commission to review each 
Federal agency for its efficiency and continued need. After an 
agency is reviewed, it would have to be positively reauthorized 
by Congress. Without congressional action, any agency not 
reauthorized would be terminated within 2 years of review by 
the sunset commission. That is pretty serious.
    This past April, Chairman Alan Greenspan testified before 
the Senate Budget Committee with regard to reforming the budget 
process. What was missing in government, he stated, was a 
systematic review of all Federal programs. He said Congress 
might want to require that existing programs be assessed 
regularly to verify that they continue to meet their stated 
purposes and cost projections. The Sunset Act is expressly 
consistent with this analysis and would bring light of review 
and accountability to Federal programs and result in 
considerable cost savings to the taxpayer.
    I look forward to hearing from our very distinguished panel 
of experts today who will provide their views and certainly 
their experience.
    In my backup, in a letter that I sent to members of the 
committee, I did list a few areas as examples, Federal program 
areas in need of review, as an example, the results commission. 
There are 19 Federal programs throughout the government focused 
on substance abuse programs. There are 90 early childhood 
programs existing and 11 Federal agencies with 20 different 
offices; 86 teacher training programs exist in 9 different 
agencies; 27 different programs and services to prevent teen 
pregnancy exist in HHS alone; 50 different programs to aid the 
homeless are operated by 8 different Federal agencies; 541 
clean air, water, and waste programs are managed by 29 
agencies.
    Now, my intention is not to discount the importance of 
programs on substance abuse, or on childhood development 
programs, or teachers training programs, or teen pregnancy 
programs, or the homeless, or even clean air and water. The 
importance of this hearing and the bills that we are 
considering today is to look at the duplication and make sure 
that we are doing it properly. We may need 19 different 
programs for substance abuse, but let us find out if we 
actually do. That is the purpose of the bill, that is the 
purpose of the hearing, and that is the purpose of the results 
commission.
    Again, I appreciate your all being here today. I am sure we 
could talk for hours about government waste and priorities. 
Unfortunately, we don't have hours. We do have a couple of 
hours today and some experts. I would formally now like to 
bring the meeting together because we have a quorum present, 
and I would like to introduce our ranking member, Mr. Danny 
Davis, if he has any comments this afternoon.
    [The prepared statement of Hon. Jon C. Porter and the texts 
of H.R. 3276 and H.R. 3277 follow:]

[GRAPHIC] [TIFF OMITTED] T5616.001

[GRAPHIC] [TIFF OMITTED] T5616.002

[GRAPHIC] [TIFF OMITTED] T5616.034

[GRAPHIC] [TIFF OMITTED] T5616.035

[GRAPHIC] [TIFF OMITTED] T5616.036

[GRAPHIC] [TIFF OMITTED] T5616.037

[GRAPHIC] [TIFF OMITTED] T5616.038

[GRAPHIC] [TIFF OMITTED] T5616.039

[GRAPHIC] [TIFF OMITTED] T5616.040

[GRAPHIC] [TIFF OMITTED] T5616.041

[GRAPHIC] [TIFF OMITTED] T5616.042

[GRAPHIC] [TIFF OMITTED] T5616.043

[GRAPHIC] [TIFF OMITTED] T5616.044

[GRAPHIC] [TIFF OMITTED] T5616.045

[GRAPHIC] [TIFF OMITTED] T5616.046

[GRAPHIC] [TIFF OMITTED] T5616.047

[GRAPHIC] [TIFF OMITTED] T5616.048

[GRAPHIC] [TIFF OMITTED] T5616.049

[GRAPHIC] [TIFF OMITTED] T5616.050

[GRAPHIC] [TIFF OMITTED] T5616.051

[GRAPHIC] [TIFF OMITTED] T5616.052

[GRAPHIC] [TIFF OMITTED] T5616.053

[GRAPHIC] [TIFF OMITTED] T5616.054

[GRAPHIC] [TIFF OMITTED] T5616.055

[GRAPHIC] [TIFF OMITTED] T5616.056

[GRAPHIC] [TIFF OMITTED] T5616.057

[GRAPHIC] [TIFF OMITTED] T5616.058

[GRAPHIC] [TIFF OMITTED] T5616.059

[GRAPHIC] [TIFF OMITTED] T5616.060

[GRAPHIC] [TIFF OMITTED] T5616.061

[GRAPHIC] [TIFF OMITTED] T5616.062

[GRAPHIC] [TIFF OMITTED] T5616.063

[GRAPHIC] [TIFF OMITTED] T5616.064

    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. I 
appreciate your calling this hearing.
    This hearing will be very helpful as we continue to examine 
how to make the Federal Government more effective and 
efficient. In April 2003, the full committee held a hearing on 
reorganizing the government. At that hearing, Comptroller 
General David Walker stressed that, above all else, all 
segments of the public that must regularly deal with their 
government--individuals, private sector organizations, State 
and local governments--must be confident that the changes that 
are put in place have been thoroughly considered and that the 
decisions made today will make sense tomorrow.
    Many experts like some of the witnesses who will testify 
before us today support granting the President's reorganization 
authority. However, there are those of us who have serious 
concerns about granting the President a too broad 
reorganization authority. I believe that everyone would agree 
that overlapping and duplicative government programs are 
problematic, but it is important to consider how much authority 
the President should be given to reorganizing the Federal 
Government and what role should Congress have in framing the 
reorganization.
    It is indeed appropriate for Congress to examine how the 
executive branch is organized. Congress already has the 
authority to reorganize Federal agencies under regular order. 
Granting broad reorganization authority to the White House 
raises serious concerns regarding the balance of powers between 
the executive and legislative branches of government.
    I too look forward to the testimony that will come from our 
witnesses today. Again, I thank you for calling this hearing 
and look forward to its implementation. I yield back any 
additional time.
    Mr. Porter. Thank you, Mr. Davis.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. Thank you for conducting 
this hearing today and also looking at the important issue of 
finding a mechanism to consolidate some of the duplicating 
agencies and activities of our Federal Government. You have 
pointed out a host of Federal program areas which may be in 
need of a review.
    Sometimes Congress doesn't conduct the proper oversight. 
Sometimes Congress only continues programs, does not sunset 
programs, and continues to increase the funding of programs. 
This does give our Chief Executive the opportunity to look at 
these programs, and make recommendations, and then also seek a 
close examination of the results and also in the light of 
duplication.
    The worst part about these programs, for example, substance 
abuse, where you cited we have 19 or 90 early childhood 
programs, 86 teacher training programs, like you said, they all 
have good intentions. But the worst part about this where they 
do, in fact, duplicate, we are spending an inordinate amount of 
money on administration and also operation and duplication, 
where our intent is to help those who need childhood early 
education assistance, to help those that need substance abuse 
prevention, helping the homeless and others that you cited. So 
I think that the legislation is also a proposal that is well-
balanced because, again, it does keep Congress in the process.
    I am anxious to hear the testimony. I thank you for 
encouraging a review of legislation initiatives like this that 
will make a difference. Hopefully, we will be able to perform 
our responsibility better, and these agencies will be more 
efficient and less duplicative in their operation and 
organization. Thank you.
    Mr. Porter. Thank you.
    Congresswoman Holmes Norton.
    Ms. Norton. Thank you very much, Mr. Chairman, and I 
appreciate the focus of the subcommittee on efficiency in 
government. I think that those of us who believe that 
government is important and necessary have a particular 
obligation to see that government is efficient. Those who don't 
think government matters very much, it seems to me, will take 
an inefficient government and have a reason for just getting 
other programs. So I feel a special kinship to your concern 
here.
    I also believe that I have seen a troubled agency up close. 
I came to head an agency which was troubled, and I had to do 
very hard things. At the time, it was during the Carter 
administration. Among the things we had to do was consolidate 
parts from other agencies.
    And do you know what, Mr. Chairman? My party controlled the 
Presidency, and it controlled both branches of government, and 
that is how we did. Now, it does seem to me that you are in 
something like that position today. I find it very interesting 
that this kind of proposal comes up at this time.
    The harder the proposal, what you will find troubling many 
Members, Mr. Chairman, is the notion of expedited procedures. 
Now, the Congress has used expedited procedures. I have gone 
back to Georgetown, where I was a full time professor of law 
and still teach one course there as a tenured professor. I 
teach a course about separation of powers.
    The thesis is that separation of powers government is so 
unwieldy in a world of instant communication, instant 
technology, global economy, that if we don't make it work 
better, the very structure we have could mean that we will be 
left behind. So I am very interested in this notion of even 
expedited procedures.
    We discuss the use of the expedited procedure for trade. We 
discuss how you better use it for trade because if the 
President is engaging in trade negotiations, and he says I 
can't really tell you how this will come out, we aren't going 
to get very far in a world where trade is done across global 
lines. We used it in BRAC, and Congress, itself of course, is 
responsible for the BRAC Procedure. Mr. Johnson, whom we will 
be hearing from soon, has called a spade, a spade here, that we 
are looking for something like that for our programs, period.
    The real question in a separation of powers government that 
is also democratic is raised by how far you want to go in using 
expedited procedures. It is a very serious question. It is as 
if none of us sat through the reorganizations we have just gone 
through.
    We did them. We did the reorganization that, in fact, was 
the largest reorganization since the Department of Defense was 
created. We did it in the way we usually do it. As a matter of 
fact, if I recall correctly, it was the Democrats who thought 
that reorganization ought to occur, and the President said yes. 
Then when it occurred, there were differences, and we did them 
the old-fashioned way.
    It takes me back to the cliche: Democracy is a terrible 
system except for all the alternatives. Mr. Chairman, I hope I 
am not looking in the face of an alternative here. I would be 
shocked if my colleagues on the other side of the aisle were as 
willing to give up as much of their responsibility as would 
occur when all of these programs were put under BRAC-type 
procedures as would be indicated if we approve this bill.
    The notion that we are a very political body, yet that 
comes as a democracy, and therefore we don't want to get rid of 
many programs is, in fact, the case. Mr. Chairman, however, I 
don't think any of us are naive enough to believe that the only 
programs that would somehow find their way off the table would 
be the inefficient programs, and there would be no political 
content to some of these programs, including programs that some 
members of this body think never should have been enacted in 
the first place.
    How many times do I have to hear that the war on poverty 
was a total failure, that none of those problems should have 
taken place? The whole notion that programs that one side 
favors, and programs that another side favors would go into 
some kind of efficiency matrix, and that is how decisions would 
be made, and we don't need democracy any more, we don't need 
oversight any more, we don't need the President cracking the 
whip on his own agencies any more, that is very troubling to 
me.
    Look, we can go to a parliamentary system if you want one 
because that is the way a parliamentary system works. I try to 
teach my students, these are law students, and we are trying to 
learn how to work more efficiency within the law and the 
system. I teach them that a parliamentary system is better 
suited to a global economy, but I have not given up hope that a 
separation of powers economy can work today. These bills appear 
to give up those hopes.
    Essentially, we are talking about a kind of government-wide 
BRAC, where the President puts it forward. Sure, we can 
overturn him if you can get two-thirds here and two-thirds in 
the Senate. My friends, when is the last time you saw that kind 
of a process go on here? It should not be more difficult to 
deal with programs that are inefficient.
    It should not be so difficult to deal with programs that 
are inefficient that we would have to create a procedure that 
would make it more difficult for some programs, and I submit 
many programs, to survive than it would be to get on the 
Supreme Court of the United States because you have to get two-
thirds here and two-thirds there. Or else, in effect, the 
Executive rules the roost. My friends, the Executive will not 
always be you. One day, the Executive will be on our side, and 
I wonder what you would think of such reorganizations if that 
were the case.
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you. I appreciate everyone's comments.
    I would like to add, for historical perspective, previous 
votes of Congress on fast-track reorganization. If we go back 
to 1977, the Senate voted 94 to 0, and the House passed by 
voice vote, with Mr. Waxman voting in favor by the way, a 
separate bill, which was a Democratic-controlled Congress, for 
fast-track authority.
    In 1984, the Senate by voice vote did the same and the 
House the same by voice vote. There is no question that there 
is a time and a place. To my friend and colleague, and actually 
my Congresswoman here in the District, I certainly respect her 
concerns, and I also share that we have to be very, very 
cautious. Everyone wants us to cut wasteful government 
spending, but no one wants us to cut their program.
    As we move forward, again in concurrence with my friend and 
colleague from D.C., we want to make sure that the pendulum 
doesn't swing too far, because as we look at programs, 
certainly there are duplications, and there is a concern, 
always a concern about the political aspects, in that if there 
is a favored program or a program that someone doesn't like.
    I share your concern. I think we have to be very cautious 
as we move forward, but I think this is a program that we are 
trying to emulate that has been very successful for multiple 
administrations. But again, we have to be cautious because 
there are a lot of wonderful programs that we would not want to 
become a victim of a political process.
    We just want to make sure if we are helping unwed mothers, 
or we are helping teachers or students, that we are able to 
give them the best programs without unnecessary duplication 
because that creates hardship to those individuals also. So 
again, I share similar concerns with my colleagues. We want to 
make sure that we do it right, and that is why we are having 
these hearings. So I appreciate your comments, and they are 
very well taken.
    I would like to move into some procedural matters. I would 
like to ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the record, that any answers to written questions provided by 
the witnesses also be included in the record; without 
objection, so ordered. I would also ask unanimous consent that 
all exhibits, documents, and other materials referred to by 
Members and the witnesses may be included in the hearing 
record, that all Members be permitted to revise and extend 
their remarks; without objection, so ordered.
    It is a practice of the subcommittee to administer the oath 
to all witnesses. So if you would all please stand, I will 
administer the oath.
    [Witnesses sworn.]
    Mr. Porter. Thank you. Let the record show the witnesses 
have answered in the affirmative. Of course, you can please be 
seated.
    Because of the number of witnesses we will have here today, 
I would ask that all witnesses tailor their oral testimony to 5 
minutes. Again, we could talk about this for hours, days, 
weeks, and months possibly, but your submitted statements will 
be part of the record and part of the deliberation. So we would 
ask that you keep your comments to 5 minutes. I would also like 
to make special note that we had originally planned for Member 
Brady to testify today on bill H.R. 3277, but with the recent 
events in his home State, he was unable to attend. So he would 
be with us if he could.
    On our first panel is no stranger to the committee and to 
Congress. We appreciate having here, Mr. Johnson, who is Deputy 
Director for Management at the Office of Management and Budget. 
Please, Mr. Johnson, if you would give us your testimony. Thank 
you, Clay.

STATEMENT OF CLAY JOHNSON III, DEPUTY DIRECTOR FOR MANAGEMENT, 
                OFFICE OF MANAGEMENT AND BUDGET

    Mr. Johnson. Mr. Chairman, Ranking Member Davis, members of 
the committee, thank you for having me here today.
    One thing I think we can all agree on is that we share the 
same goal, which is we want to spend the taxpayers' money 
wisely. A lot of attention is being devoted today to how we 
spend going forward and in the past month how we spend the 
Katrina moneys most wisely. I would suggest that it is equally 
important for us to be focused on how we spend all of our 
money. The results and sunset commissions can help us do just 
this, can help us spend the money more wisely than we are 
spending it now.
    I am going to make my verbal comments very, very brief 
because I want to get into, with your questions, some of the 
issues that you have raised here in your opening statements. 
But I do want to say here at the beginning that these 
commissions, in our opinion, help programs work better. These 
are more about getting programs to work better, to remove 
duplication, to improve performance. The focus is primarily on 
performance, than it is on getting rid of programs, and 
improving efficiency. The primary focus is on improved 
performance. We want to get a better return on the taxpayers' 
money.
    Second, these programs are used by approximately half the 
States. To my knowledge there is no concern, or history has 
shown that there has been no diminution in the relative role of 
Congress versus the executive branch in these States or the 
other way around. There is no reason to believe that these 
commissions, the sunset commissions and the results 
commissions, can't work as well here as they work at the 
States. The only reason that they would work less well is if we 
are truly not interested in spending money wisely, and I know 
that is not true.
    Also, I would like to make the point that these commissions 
should be popular with Republicans and Democrats, Liberals and 
Conservatives. These programs are about improved performance. 
Ron Martinson, this ties back to your comment to me a year and 
a half ago, which is results are something that both sides of 
the aisle can agree with.
    If you are a big government or a little government person, 
you want to focus on results. If you are a Liberal or 
Conservative, Republican or Democrat, you want results. So this 
is maybe little, or not, a partisan issue, what we are going to 
talk about in here. Most of the discussion, I suspect, will be 
on how to best focus on getting our programs and our money to 
be spent even more wisely.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T5616.003
    
    [GRAPHIC] [TIFF OMITTED] T5616.004
    
    [GRAPHIC] [TIFF OMITTED] T5616.005
    
    Mr. Porter. Thank you, Clay, and we appreciate your 
expertise. How would you handle the criticism of creating these 
commissions and this legislation, criticism that it is just 
another government program; it is another commission; it is not 
going to do anything? How do we handle the argument that one, 
they are not going to be successful; it is just going to be 
business as usual? Then tag onto that a concern that I, again, 
share with my colleagues, that this does not become a political 
process. If in fact it does work, how do we keep the politics 
out of it?
    Mr. Johnson. Well, there is no commission that will work 
automatically. You put the wrong people, or provide the wrong 
leadership, or create the wrong mission or charter for a 
commission, it will fail. And so, there is nothing automatic. 
This is not a magic bullet.
    But these are both instruments that, if the executive 
branch and the legislative branch both want them to be used 
successfully to spend the taxpayers' money, they can bring us 
together in a most effective fashion to do just that. And if 
Congress doesn't want this to work, or if on the other hand the 
executive branch doesn't want this to work, it will not work 
because Congress and the executive branch are brought together 
in terms of the formation of the commissions, in terms of what 
subjects and what programs the sunset commission takes up, and 
Congress has to agree with the executive branch on what results 
commissions objectives or areas would be addressed by the 
results commissions.
    There is a tremendous amount of interaction between the 
executive and legislative branches, and if either one of the 
two parties wants it to not be productive, it won't be. I have 
no concern about the one branch of government reigning supreme 
over the other. You wouldn't allow that; the executive branch 
wouldn't allow that. These programs, these two commissions are 
structured to call for equal involvement in focusing on how we 
are spending the people's money.
    I am not sure it would have made sense to propose these 
commissions 5, 6, 7 years ago. One of the things that we have 
not had in the Federal Government is consistent performance 
information about how programs work. We have today, or soon, we 
will have 80 percent of the programs, and next year we will 
have 100 percent of the programs, a good first step at 
consistent information about whether programs work or not.
    So we will have information to sit down and look at, 
Republicans and Democrats, Liberals and Conservatives, 
legislative and executive branches, and have a most meaningful 
conversation about does this program work. Does it achieve the 
intended result at an acceptable cost? And if there is some 
belief that it doesn't, we can then engage in a conversation 
about what we need to do to change that; if it is not 
satisfactory, what we can do to change that.
    Mr. Porter. Excuse me, Clay. What about the argument that 
we will lose congressional oversight and involvement?
    Mr. Johnson. Well, in the sunset commission, first of all, 
Congress has to agree on: What is a program? What will be 
looked at every 10 years? Do we want the Defense Department at 
large looked at every 10 years? Probably not.
    Do we want the Commerce Department, or do we want this size 
of programs, or this conglomeration of programs? Congress is 
integrally involved and has to approve in expedited procedures 
what is the list of programs that will be reviewed every 10 
years. Then every 10 years, one-tenth of the programs come up 
for review.
    Then a recommendation is made, the commission reviews it, 
makes their determination as to whether it is a good 
recommendation or not, and if it is not a good recommendation, 
how they would amend it. That then presents certain 
recommendations to Congress to followup on. Congress can agree 
with those recommendations, can propose those reforms, or not 
agree. So Congress is integrally involved in any changes that 
take place as a result of the sunset commission's work.
    Mr. Porter. Because of up or down?
    Mr. Johnson. No. They say this program ought to be changed 
by changing this statute or requiring more accountability or 
less accountability, whatever it is. Congress votes on that 
just like they do now. The one thing that happens if they don't 
vote in 2 years time about whether that program should be 
continued, it goes away.
    Now, I can't imagine that presents a problem for Congress. 
On the Results Commission, Congress gets a vote and responds to 
a proposal by the executive branch as to whether to even take 
up an issue, whether it ought be job training or disadvantaged 
youth, or preschool education, or whatever. They decide whether 
this is a controversial or noncontroversial enough topic to 
even take up for consideration in a Results Commission fashion.
    Then once they agree that it should be, then a commission 
is formed of experts. They get to have an input on who is on 
that panel, that seven-member commission that looks at their 
experts in that particular subject. Then when the proposal is 
put together, and it eventually comes to Congress, that is 
considered in an up and down vote.
    So Congress' input in that is: Is it a topic we want to 
take up in the first place? And two, they have input as to who 
is on that commission. And then they can reject the 
recommendation at the end if they were on an expedited basis.
    One of the things we have been asked is, well, why haven't 
we sought reorg authority like last existed, I think, in the 
early eighties. One of the reasons we haven't sought it is 
because we knew there was zero chance of it ever being 
approved, just for all the reasons that you talked about.
    There is just no appetite for giving the executive branch 
reorg authority as is, unless there is a strong plan, unless if 
we can demonstrate a strong reason why and how we would use 
reorg authority to get something specific accomplished. We can 
talk to very specific things we would get accomplished with the 
use of something like the results commission.
    You listed a whole bunch of areas where we have huge 
duplication. Maybe it is true that all these things do not 
duplicate, and they are all wonderfully effective programs. I 
think we all doubt that. GAO has listed in several occasions a 
long list of programs where we have 20 programs or 30 programs; 
and we know they work at cross purposes, they are inefficient, 
they overlap, they don't overlap. They need to be thought 
through more intelligently. There is no mechanism now that 
brings us all together, all the interested parties together, to 
help us look at that in a meaningful fashion.
    We talked about overlap. The results commission is an 
instrument that allows us to address the degree to which there 
is overlap, and the opportunity we have to not necessarily 
right-size but to wise-size these programs, and make them so 
that they are a good effective delivery of goods and services 
to the American taxpayer.
    Mr. Porter. Thank you, Mr. Johnson.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Johnson, in trying to determine the efficiency and 
effectiveness of programs, and whether or not there is room or 
opportunity for consolidation, what are we looking for when we 
make assessments? What are we trying to find out?
    Mr. Johnson. Well, it would depend on the program. Maybe 
let me talk a little bit in theoretical terms. If we looked at 
20 or 30 programs, and we said: All right, do each of these 
programs have designed goals, designed outputs? Do they have a 
target audience and something specific that we are supposed to 
do with that target audience, so that we can measure results 
and hold the program manager responsible for the accomplishment 
of the desired goal? We would look for that.
    We would look for whether programs are trying to accomplish 
the same goal, but it is the same target audience. Do they 
duplicate each other? Is one more effective than the other? Can 
the less effective program learn something from the more 
effective program? Do they have different definitions of who 
the target audience is? Do they have different definitions of 
the most effective way of delivering the desired service?
    If we have something to learn, let us learn it. If we have 
programs working at cross purposes, let us learn that and get 
rid of that. If we need to bring some of them together because 
right now a potential citizen to be served has to go to eight 
different places to get all the different things related to 
training, childcare, or something. Why not bring them together 
and give them one place to go, so that we can make it easier 
for the customer to be served by the Federal Government?
    So you get into service delivery improvements. You get into 
cost improvements. You get into minimizing duplication, 
minimizing programs that work at cross purposes. It can be any 
number of different things. But I know that those problems 
exist.
    Mr. Davis of Illinois. Do you view the danger of simple 
budgetary concerns sometimes driving the ultimate decisions? I 
have always been amazed that we wiped out something called the 
OEO Poverty Programs at a time when I thought they were just 
beginning to prove their worth. I always felt that they didn't 
die, that they were killed. And now, we are back talking about 
poverty in a big way today.
    I am saying one of the biggest discussions that we are 
having in this country is about poverty. And yet, when it 
seemed to me that we were moving in the direction of having 
some impact on the reduction of poverty, that we just iced the 
poverty programs and said: These things are not working. They 
are no good.
    We are spending the money, and it is not serving the 
purpose. How much danger do you see there because I am still 
not convinced that we did the right thing when we eliminated 
many of the old OEO Poverty Programs?
    Mr. Johnson. I don't know the specifics of that program, 
but let me make a general statement and then answer that more 
specifically. I don't think the amount of total budget issues 
will be any greater or any less with the results and sunset 
commissions. We are seeing less growth in our non-Defense, non-
Homeland Security budgets now, and I suspect that will continue 
in the near future.
    So we are particularly looking now for programs that don't 
work. If they don't work, let us get rid of them and send them 
on because I have a new idea. I have a new program. We are 
looking for sources of funds. So eliminating programs or making 
programs work better is a way of finding new money, a way of 
getting more for the money we have.
    On the specific program, in what we proposed here, if a 
poverty program came up, and it was scheduled to go through a 
Sunset Review, I am imagining that in general what would happen 
is, it would come up. What would be proposed is, here is this 
program. This would go before the sunset commission.
    The definition of success as stated in the bill or as 
implied by the bill is this: This program performs that, it 
performs it medium, it performs it not at all, it performs it 
great. And we think it could work better if this happened, or 
if that happened, or if we changed some things, or tightened 
the law, or made this more accountable, or combined with this, 
or whatever.
    The goal, initially, would be to see if the program worked 
better. I can imagine that the only time you would come up with 
a recommendation for eliminating the program is if it totally 
duplicated something else, or it was just a total waste of 
money, and there aren't many like that. The Sunset Commission 
would say, we recommend that this be continued, but that these 
changes be considered by Congress.
    So Congress would vote affirmatively that the program be 
continued. They would take up the proposed changes to the 
program. They accept them; they reject them, but Congress has a 
lot of say in this. That is why I think it is a misnomer here 
that this is a creation of lot of executive branch mandates on 
what happens to these programs. There is a lot of congressional 
involvement throughout these two processes.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Porter. Mr. Mica.
    Mr. Mica. In looking at the proposed Government 
Reorganization Program Performance Improvement Act, the 
summary, it looks like you are doing most of your work in 
looking at programs just within the Federal purview, is that 
correct?
    Mr. Johnson. As opposed?
    Mr. Mica. Well, for example, several times you talk about 
Hurricane Katrina and looking at, let me see here----
    Mr. Johnson. For State and local? States?
    Mr. Mica. Yes.
    Mr. Johnson. Twenty-five or 24 States have Sunset 
Commissions or something akin to that, that was what I was 
referring to earlier.
    Mr. Mica. ``Consistent with our focus on results, 
particularly in the wake of Katrina, Congress and the executive 
branch should be paying special attention to whether we are 
getting the most for taxpayers' dollars.'' But you are limiting 
that to Federal scope because I mean you are not getting into 
duplication of programs between Federal and State.
    Mr. Johnson. No. Well, if I knew that we thought there was 
a program that was duplicated by a State program, or it was in 
conflict with a State program, I think recommendations coming 
out of that would be----
    Mr. Mica. But that might be something that is considered 
also.
    Mr. Johnson. Those conflicts would be recommended for----
    Mr. Mica. I see you shaking your head, yes. Then the guy 
behind you, I know what he does, and he is saying no. He isn't? 
OK. So you are saying, yes.
    Mr. Johnson. I don't speak for this bunch behind me.
    Mr. Mica. OK.
    Mr. Johnson. I don't have the slightest idea who they are.
    Mr. Mica. All right. But you are saying, yes, that would be 
a consideration, that you are looking not only at----
    Mr. Johnson. We want the Federal programs to work, and if 
there is something in the way the Federal program is 
constructed----
    Mr. Mica. Well, many times, we have difficulty in sorting 
out what level of government is responsible. I mean Katrina, 
who is responsible for the levees and dams? Again, you used 
Katrina here in a couple----
    Mr. Johnson. What I meant by the Katrina reference is, 
there is a lot of discussion now, relevant, highly relevant 
discussion. If we are going to spend as much money as we appear 
to be ready to spend on the response to Katrina, we need to 
make sure we have the mechanisms, the extra preventions, and 
the extra resources in place to ensure that we spend it 
wisely----
    Mr. Mica. That is why----
    Mr. Johnson. So there is a lot of interest on getting our 
moneys worth for all this expenditure, and that mind set should 
exist, I suggest, on everything the Federal Government does, 
just not what we do in response to a natural disaster.
    Mr. Mica. But again, as you approach that problem or other 
issues that we get involved in, we also see this division of 
participation and responsibility at the Federal level. And 
again, I was trying to find out if you are just looking at 
Federal duplication in the process that you----
    Mr. Johnson. In the results commission, we would be looking 
at Federal duplication, yes.
    Mr. Mica. Of just Federal activities, not getting into 
whether the State or local?
    Mr. Johnson. We would be looking, yes, the Federal programs 
focused on the same subject. Are they aligned with each other? 
Do they conflict with each other? Do they support one another? 
Are there ways they could be combined to be make it easier on 
the customer, easier for the delivery of goods and services to 
the intended customer?
    Mr. Mica. Well, again, I think we have a bigger problem in 
that regard, and maybe we should look at expanding the purview 
of this. One of the interesting things I have found, too, is 
where we go in and assist in some of these programs. I have 
found that the States turn around and reduce their 
participation. Substance abuse is a good one. In Florida, we 
put more money into Florida, not to mention----
    Mr. Johnson. The State pays less, and so overall, no more 
is spent.
    Mr. Mica [continuing]. Duplicating Federal programs, but 
then we put money in, and either the States or locals drop 
theirs back. HIDTA is a good example, too, of a problem that we 
have had. In the nineties, we created HIDTAs. It was supposed 
to be high intensity for focused Federal attention in an area.
    Then we have ended up keeping these HIDTAs for years. If 
you got in the mix, I happened to get one in the mix on a 
heroin problem back in the nineties. We are still getting the 
HIDTA, and it does duplicate what is being done by the State. 
In some instances, it completely missed the mark of what its 
original intent was, and that was to go after a specific 
problem and target Federal resources.
    If anything, I would like to see your proposal expanded 
because I think it limits. At least as I understand it, I would 
like to see it expanded, so that it could look at a wider range 
of problems. Clay, I have been here 13 years. I have identified 
the problem in most of these instances, and it is Congress; we 
are the guilty party. I like some of the mechanisms that remove 
this a bit. We have had some horrible votes here on the HIDTA 
issue that the administration wanted to eliminate some of the 
duplication, which is going for administration and overhead, 
and the original program not used for its purpose.
    Another problem, Head Start, another very worthwhile 
program. You have, again, a whole host of programs that have 
just sort of gone along, and nobody looks at the duplicative 
things. Not to mention in Head Start, for example, now again, 
you see the States all doing their preschool programs, and we 
are spending $8,000 on, in many cases, a glorified babysitting 
program that has been part of another era and not adjusted, 
neither with the duplication in Federal childhood programs, not 
to mention the new era we are getting into with States getting 
into that mix.
    I guess that is a question. Are you interested in taking it 
a step further? Do you think that would be helpful?
    Mr. Johnson. We are interested in programs working better 
and if there are conflicts between how State and local and 
Federal programs interact with each other. The identification 
of that, which we get at with the PART, if they can be 
addressed with this, in the sunset commission or in the results 
commission, yes, we should do that.
    Mr. Mica. So we could add something that said that they 
would also look at duplication beyond the Federal borders.
    Mr. Johnson. Yes, sir.
    Mr. Mica. OK. Thank you.
    Mr. Porter. Congresswoman, any questions?
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Johnson, the difficulty I am having is basically with 
your submission of what amounts to an outline as testimony, as 
far as I can get my arms around what you are even talking 
about. One is left to wonder with such a drastic change that 
might effect each and every program in the government, whether 
any self-respecting congress would ever buy a pig in a poke 
with this kind of broad outline with no indication of how this 
thing would work.
    For example, to use your, since you like broad concepts----
    Mr. Johnson. We also like specific legislation which has 
been submitted.
    Ms. Norton. OK. Well then, you will be able to answer my 
questions very easily.
    Using your concepts that help people to understand because 
if you conceptualize something, then people understand what you 
mean. You said that what was being proposed in the results 
commission was ``much like the Military Base Realignment and 
Closure Program.'' As I listened to you explain to the chairman 
the program, I couldn't see a dime's worth of difference 
between what you were saying and BRAC. Could you tell me if 
there is anything different between, for example, your results 
commission and BRAC, in the way it would operate?
    Mr. Johnson. Yes, ma'am. First of all, in the results 
commission, let us say we propose that food safety be addressed 
because there are X number of programs dealing with food 
safety, and there is reason to believe that they work at cross 
purposes, or are not properly configured, or something.
    Congress can say, we are really not interested in food 
safety; or we are, but it is too controversial; or we have more 
important things; or they could decide not to even bring up the 
issue of food safety. In BRAC, you don't get the choice. There 
will be base realignments brought up. You don't get a choice to 
say you are not interested.
    Ms. Norton. Excuse me, who brings up food safety?
    Mr. Johnson. We would----
    Ms. Norton. You bring it up. How then do we communicate to 
you that we don't want to hear it, and that is the end of it? 
How does that happen?
    Mr. Johnson. I was----
    Ms. Norton. This is a results commission. You bring it up. 
That must be with a proposal.
    Mr. Johnson. Yes, ma'am.
    Ms. Norton. You come up with a proposal.
    Mr. Johnson. We propose to Congress that a results 
commission be formed to deal specifically with the issue of 
food safety. If Congress agrees to look at the issue of food 
safety by means of a results commission, then we set about to 
create a seven-person commission with input from majority and 
minority leadership.
    Ms. Norton. OK. So you are saying, as with a BRAC 
Commission, Congress has to set it up by legislation, right? In 
other words, you can't just do this unless a bill is passed 
allowing you to do it?
    Mr. Johnson. Yes.
    Ms. Norton. All right, OK, fine. That is exactly what we 
did in BRAC. Once the commission is set up, and that is really 
my question, not how it gets started. This is still a 
Democratic Republic, so I didn't think you all could just fly 
off and do it without some authorization. I am trying to find 
out how it works, Mr. Johnson. Once it gets started, what is 
the difference between BRAC and this commission in its 
operation and in its relationship to the Congress of the United 
States?
    Mr. Johnson. OK. Let me explain something that I don't 
believe is quite clear just yet. You can accept or reject 
specific areas of inquiry. You have no choice with BRAC. You 
will receive a recommendation on base closure.
    Ms. Norton. Just a moment, that much I do understand. 
Suppose we say, OK, we want you to look at food safety, or we 
want you to look at programs of one kind. When I say I am 
trying to understand how it operates, that is really what I 
mean, Mr. Johnson. I am not saying, how do you set it up.
    Let us move to the next step. Once it is set up, how does 
it operate, and what is the difference between how it operates 
and BRAC? I don't think what you have told me is any different 
than in BRAC because we set up BRAC. So I assume we have to set 
up whatever is this inquiry, fine. Once we set it up, is there 
any difference between it and BRAC?
    Mr. Johnson. OK. I am sorry. I am not here to upset you.
    Ms. Norton. I am not upset. This is just my way of cross-
examining you. [Laughter.]
    Just ask them.
    Mr. Johnson. OK.
    Ms. Norton. Especially when you came back to me with the 
same thing, Mr. Johnson, when I was real clear, I thought. I am 
an operational person. I told you I had an outline. I just want 
to know whether there is any difference between how it 
operates. The word, operates, the operational word, I thought, 
that is what I want to focus on.
    Mr. Johnson. I don't know the mechanics of BRAC, but let me 
describe to you the mechanics of the results commission. We 
propose----
    Ms. Norton. You didn't know the mechanics of BRAC, but of 
course, I just quoted when you cited BRAC as the way in which 
the commission would operate. That was your analogy, Mr. 
Johnson.
    Mr. Johnson. The analogy is that a proposal comes to 
Congress to vote on in its entirety, up or down. That is the 
similarity with BRAC.
    Ms. Norton. That is what I wanted to get understood. Now 
let us go to what you wanted to focus on, which is how it gets 
set up. In your testimony, there is a reference. The word 
bipartisan is used. Who appoints the results commission? Who 
appoints the sunset commission?
    Mr. Johnson. The President with input from majority and 
minority leadership in both houses.
    Ms. Norton. When I say bare bones, I mean for example, one 
of the things one might have expected to have in your testimony 
is whether this would look like other commissions or any 
different. For example, a commission on which I served when I 
was in the government, there were more members from my party 
than from the minority party. So my question is this: Would 
this commission reflect that way of organizing?
    Mr. Johnson. Yes, there is to be a seven-member commission. 
I think there are three and three. There are three members 
appointed by the President, and four members who are appointed 
by majority and minority leadership in the two houses.
    Ms. Norton. So there would be a majority always of the 
President's party.
    Mr. Johnson. Yes.
    Ms. Norton. What appeals certainly to me and I think to 
most people is when you talk, as you do in your testimony, 
about performance. I understand that the performance of 
agencies is the President's chief responsibility. So one 
expects him to have agencies that perform. And if he doesn't, 
the buck passes to him, as the President found out about FEMA.
    I want to know if in the process, for example in the sunset 
commission, we are told a 10-year schedule for the 
administration to assess the performance of agencies, does the 
legislation that you say has been submitted to the Congress 
indicate that these agencies will be given recommendations as 
to how to improve and that they will be judged based on whether 
they improve, whether or not they improve? After all, we are 
talking to the President about his own agencies. Is there any 
part of the legislation that would help agencies that are not 
doing as well as they should to do better?
    Mr. Johnson. This legislation is not needed to do that. At 
the end of next year, 100 percent of the agencies will have 
clearly defined and have clearly available the assessment that 
was developed by them and OMB as to whether they work or not, 
what their performance goals are, what their efficiency goals 
are, the extent to which they are achieving those goals, and 
what opportunities they have for improving performance whether 
they are a top program, medium program, or bad program.
    So new legislation is not required for there to be lots and 
lots of clarity for agency management and for Members of 
Congress to know whether programs are working or not.
    Ms. Norton. So by next year, you will----
    Mr. Johnson. Eighty percent----
    Ms. Norton. You will know how many programs shouldn't be 
here and how many should, and you will be prepared to submit 
legislation to that effect because you have been doing this?
    Mr. Johnson. We recommend every year programs to change----
    Ms. Norton. Have we gotten on the 10-year schedule? You 
said 10-year schedule here.
    Mr. Johnson. We undertook, beginning in the summer of 2001, 
a 5-year program to evaluate all programs, a 5-year effort to 
evaluate all programs, 20 percent a year. Next year will be the 
5th year. So we are finishing up the evaluation of the fourth 
quintile.
    Ms. Norton. You are in the process of helping these 
agencies to improve so maybe they will continue to exist.
    Mr. Johnson. Yes, the goal is that programs not go away. 
The goal is that programs work. This is not about getting rid 
of programs. This is not about making government smaller or 
larger or sideways. This is about spending the money more 
effectively.
    What happens in the State of Texas is a few things go away 
in the Sunset Commission but, most importantly, Congress and 
the executive branch--well I guess in Texas it is primarily an 
executive branch function--they look at ways to change the 
enabling legislation, to tighten the specifications, to combine 
them with other things, to better serve the citizens of Texas. 
This is not about getting rid of things or allowing things to 
exist. That is one possible outcome, but that is the outcome in 
a minority of the cases.
    Ms. Norton. Well, I take it then that you would conclude 
that the huge reorganization underway in DOD, the 
reorganization of the Department of Homeland Security, neither 
of which used this process, was a failure. And for that reason, 
you believe we need a whole new process, BRAC process, for the 
entire government.
    Mr. Johnson. No. This sunset and results commission is 
designed to look at, first of all, whatever Congress wants to 
look at. Our suggestion is that it look at programs, that it 
not look at entire departments. We think looking at the entire 
department of whatever is not a very worthwhile exercise 
because a department is a combination of a whole lot of 
different programs, some of which work, some of which don't. 
What we would recommend to Congress is that we focus on 
programs. If Congress wants to focus on overall departments, 
they can guide us in that direction. We suggest a programmatic 
focus, not a department focus.
    Ms. Norton. The sunset commission, on the other hand, would 
not operate that way.
    Mr. Johnson. No. They would all be focused at programs. 
Sunset would focus on programs, and then the results commission 
would focus on areas addressed by multiple programs. So the 
results commission would look at job training, or rural water 
safety or something, rural health, an area that is served by 
multiple programs.
    So it would be a subject matter served by multiple 
programs. We would look at the best way to accomplish job 
training, and the way to make all the programs that work on it 
make sense with each other. So the results program works on an 
area of delivery, and the sunset commission focuses on 
individual programs.
    Ms. Norton. Fine. I know my time is up, Mr. Chairman. Mr. 
Johnson, you are going to find Members like me who have been on 
the inside of the Federal Government very favorably disposed to 
the notion of trying to get rid of bad programs and consolidate 
programs.
    I began my opening statement by saying, I believe in 
government. I believe we would have been better off if we had 
continued to improve FEMA, as it was found on its knees by the 
last administration, broke up, and there it is right back down. 
I think this notion of looking at programs constantly would 
help that.
    I say that because you have presented this proposal to a 
Congress that has just done a reorganization of the two largest 
agencies in the entire Federal Government, where almost all the 
Federal employees are. It was contentious the way things are in 
a separation of powers government, where the parties are 
divided, but we somehow did it.
    And I am left to wonder if you are as serious as you seem 
to be about improving these programs, whether you could think 
of a less contentious way to go about it. I think this is a 
radical, a radical assault on separation of powers. I can't 
imagine this Congress doing it. I really can't. I can't imagine 
them coming up with an agreement on a set of programs and then 
saying, on this set of programs, up and down.
    Were you watching the BRAC stuff? I mean this is the way to 
get people at you from all directions.
    Mr. Porter. Excuse me, Congresswoman. Because of time, if 
you would like to answer that question----
    Ms. Norton. It is just some friendly advice, Mr. Chairman.
    Mr. Porter. I think it is a good question. If you would 
like to answer the question, then we will move on. This will be 
your last, if you would please, Mr. Johnson.
    Ms. Norton. You are absolutely right, Mr. Chairman, and you 
have been most gracious.
    Mr. Porter. Thank you.
    Ms. Norton. I just ask you to look at the notion of whether 
or not you want to superimpose expedited procedures on what is 
a very important notion. When you pile that on it, it seems to 
me, people, large numbers of people, will look the other way.
    Mr. Johnson. My one comment in response to that is when we 
were playing this out, we tried to think that Congress is not 
going to allow this to be one way. So at what different points 
should Congress be involved to have significant influence over 
the final decision? And we think we have done that, but 
obviously, we have not made our case. Quite clearly, we have 
not made the case to you, and I apologize for that.
    Mr. Porter. There will be further opportunity. Thank you 
very much for your testimony today, Mr. Johnson. Thank you.
    Mr. Johnson. OK.
    Mr. Porter. We will move on to the second panel. On our 
second panel, we will hear first from Mr. Paul Light, a 
Paulette Goddard professor of public service at the Robert 
Wagner School of Public Service at New York University. Then we 
will hear from Mr. Tom Schatz, president of Citizens Against 
Government Waste; third, we will hear from Mr. Maurice McTigue, 
vice president for Outreach at Mercatus Center. Last, Mr. 
Robert Shull, director of regulatory policy, OMB Watch. We have 
approximately 55 minutes left to be able to use the room. So I 
welcome all of you.
    Mr. Light.

  STATEMENTS OF PAUL C. LIGHT, PAULETTE GODDARD PROFESSOR OF 
  PUBLIC SERVICE, ROBERT WAGNER SCHOOL OF PUBLIC SERVICE, NEW 
YORK UNIVERSITY; THOMAS A. SCHATZ, PRESIDENT, CITIZENS AGAINST 
 GOVERNMENT WASTE; MAURICE P. MCTIGUE, Q.S.O., VICE PRESIDENT 
FOR OUTREACH, MERCATUS CENTER; AND J. ROBERT SHULL, DIRECTOR OF 
                  REGULATORY POLICY, OMB WATCH

                   STATEMENT OF PAUL C. LIGHT

    Mr. Light. It is my pleasure to be before you today. I went 
down to the full committee room and thought for a second that 
all that media was for this important topic. Unfortunately, it 
isn't.
    As I say in my testimony, I believe in the importance of 
reorganization as a tool to improve government performance. I 
believe in the notion of establishing some sort of bipartisan 
commission to examine the organization of government. To a 
certain degree, I argue that the sunset and results commissions 
are too tepid for the task, that we ought to look at the 
organization of government as we did in the early 1950's, late 
1940's, and take a look at how things are structured around 
mission. This was a central recommendation of the National 
Commission on the Public Service which was chaired by Paul 
Volcker and gave its report to the Government Reform Committee 
in January 2003.
    I think the administration has gone toward the results and 
sunset commissions as a way of breaking this down so that it is 
more manageable. My general view is that, by breaking it down, 
you expose it to the same controversy and potential delay that 
you would have in any situation where you are starting 
reorganization from scratch.
    As my colleague from OMB Watch rightly notes, Congress can 
currently reorganize at will; it just doesn't. And the fact 
that it can doesn't mean that it shall. And I think that some 
sort of a BRAC-style, action-forcing mechanism can be a very 
useful piece of legislation to improve the organization of 
government.
    What I recommend in my testimony is that we proceed with a 
much more aggressive government-wide assessment of the 
organization of government, and rather than starting with 
programs as our focus, that we start with organization. 
Ultimately, we will get to programs. Because if you adopt a 
mission-centered approach to looking at reorganization, you are 
going to start down the same path that the administration has 
ended up on by looking at how programs overlay each other.
    But the assumption in looking at organization first is not 
that programs are functioning well or not well; it is whether 
or not we have the organizational structures in place to allow 
them to function well or not well. In other words, we start 
with organization as our focus and look for the possible 
culprits, organizationally and otherwise, that might explain 
poor program performance.
    It may well be, for example, that the reason an agency 
fails is because we have under-invested in its human capital. 
It may be that the program results are poor not because of 
program design, not because of poor intentions, but because we 
haven't invested in the organization; we haven't given it the 
tools and resources to do its jobs.
    As I looked at the Federal Human Capital Survey that was 
done in 2002, looking at the data on the Federal Emergency 
Management Agency, I was struck by the fact that over and over 
we find FEMA at the bottom of the list in terms of employee 
attitudes regarding access to resources, access to budget, 
access to the basic tools that they need to be successful.
    My general argument here is not to disagree with the 
overall notion that we need some sort of action-forcing device, 
and we need to get on with this task. It has been recommended 
to Congress repeatedly over the last 20 to 30 years. Rather, my 
recommendation to you is that you take a much more 
comprehensive approach and that you also consider the 
possibility that such a commission could be created within the 
remaining years of this administration, but whose report would 
not go to the President until after this administration has 
left office.
    That is what we were able to do in 1988 when the Senate and 
House agreed on creating a National Commission on Restructuring 
for Government. We left the decision about whether to trigger 
the commission into existence to the first administration to 
follow the Reagan administration. It happened to be the 
administration of George H.W. Bush and his Director of the 
Office of Management and Budget decided that it was not a wise 
investment of the administration's time.
    With perfect hindsight, I wish we had not given the 
administration that option to trigger or not trigger the 
commission, and I think we missed an important opportunity to 
take a look at many of the problems that this subcommittee is 
examining today.
    I will submit my full testimony for the record and be 
available for any questions you might have after my colleagues 
have testified. Thank you.
    [The prepared statement of Mr. Light follows:]

    [GRAPHIC] [TIFF OMITTED] T5616.006
    
    [GRAPHIC] [TIFF OMITTED] T5616.007
    
    [GRAPHIC] [TIFF OMITTED] T5616.008
    
    [GRAPHIC] [TIFF OMITTED] T5616.009
    
    [GRAPHIC] [TIFF OMITTED] T5616.010
    
    [GRAPHIC] [TIFF OMITTED] T5616.011
    
    [GRAPHIC] [TIFF OMITTED] T5616.012
    
    [GRAPHIC] [TIFF OMITTED] T5616.013
    
    Mr. Porter. Thank you, Mr. Light. We appreciate it.
    Mr. Schatz.

                 STATEMENT OF THOMAS A. SCHATZ

    Mr. Schatz. Thank you very much, Mr. Chairman, Mr. Davis, 
and Ms. Norton. I appreciate the opportunity to testify here 
today. This is certainly a topic that has been the subject of 
much discussion over the years, not just whether we should have 
additional commissions, but also how to reorganize and 
restructure the government.
    I would like to give some tribute to the Office of 
Management and Budget for its effort under the Performance 
Assessment Rating Total or the Program Assessment Rating Total. 
It is at least something that is there for people to look at to 
determine whether programs are operating efficiently or 
inefficiently. We would certainly like to see Congress respond 
to those ideas a little more expeditiously.
    The President has submitted lists, as he does every year. 
Every President submits lists. And perhaps, it is the 
frustration, or in some ways lack of response, that has led to 
the establishment in legislation at least of sunset and results 
commissions. Sure, Congress could do a lot of this, but we 
haven't seen enough of it, and I think that is reflected in the 
response to the costs of the hurricanes.
    People are saying: How are we going to pay for this? One 
way might be to eliminate low priority programs. How do we 
determine what those are? Whether it is the sunset and results 
commissions that determine that, or whether it is Congress 
itself, whether it is OMB, there must be some way for us to get 
to providing a better return on the tax dollars that we pay.
    Mr. Johnson mentioned a number of States have Sunset 
Commissions: Alaska, Arizona, California, Colorado, 
Connecticut; they are listed in my testimony. Texas has had a 
very successful Sunset Commission over the years. As he pointed 
out, and as we note, those recommendations do go back through 
the legislature. This doesn't just happen because the executive 
branch asks for it.
    And I would just like to respond briefly to the BRAC 
discussion. Congresswoman Norton, you are correct; it was 
controversial, but it did get done. What happened was the 
Pentagon's recommendations were probably altered more than past 
BRACs have been. I think that shows that this process does work 
over a period of time, in that when you are talking about the 
military or you are talking about serving low income 
individuals, one of the ways to do that is to make these 
programs work more effectively. We can provide more help at 
less expense to the taxpayers by making them work in a way that 
gives that money out instead of having 16 or 18 or 30 or 40 
different ways of trying to do the same thing.
    So, as I said, I think if Congress had been doing this all 
along, we might not be sitting here today, but that has not 
been done in a way that has satisfied a lot of people on both 
sides of the aisle. However we do it, whether it includes 
expedited procedures or not, which we think it should, whether 
we go to the reorganization--and I would never argue with Paul 
Light who has been doing this probably longer than I have--
there has to be a comprehensive way to look at this.
    The last real comprehensive look at the overall structure 
of government from an outside commission was the Grace 
Commission, which is the predecessor to Citizens Against 
Government Waste. Congress took up a lot of those proposals. 
The administration took up a lot of those proposals. The first 
three were actually adopted by Congressman Rostenkowski as Head 
of the Ways and Means Committee, including a tax refund offset 
proposal and a computer matching program so that you could 
determine if somebody who had become ineligible in one Federal 
program could get money from another.
    Some of these are simple management initiatives; some of 
them are complete overhauls of programs; some of them include 
program eliminations. But I hope we have moved beyond the 
discussion about whether people like government or don't like 
government. I think it has been made very clear by this 
administration that they are not going to go out and close the 
agencies and departments that were proposed under President 
Reagan's administration. We don't hear that discussion any 
more.
    So if we can agree that these things should be done, I hope 
we can agree on legislation or some way to get them done, so 
that taxpayers will feel a little bit better about all the 
money that they send here in Washington. We would like to see a 
further analysis of what the Office of Management and Budget 
has proposed under PART, what Congress' reaction has been, and 
at the very least which of those programs could or should be 
eliminated even before we get to the commissions because this 
work needs to be done before we get to these commissions. We 
have, according to the Louisiana delegation, a $250 billion 
bill to pay for just Louisiana. Whether that is true or not, we 
really have to find some way to offset those expenses.
    Thank you, Mr. Chairman. I appreciate the opportunity to 
testify, and I am happy to answer any question.
    [The prepared statement of Mr. Schatz follows:]

    [GRAPHIC] [TIFF OMITTED] T5616.014
    
    [GRAPHIC] [TIFF OMITTED] T5616.015
    
    [GRAPHIC] [TIFF OMITTED] T5616.016
    
    [GRAPHIC] [TIFF OMITTED] T5616.017
    
    [GRAPHIC] [TIFF OMITTED] T5616.018
    
    Mr. Porter. Thank you, Mr. Schatz.
    Mr. McTigue, welcome back. We appreciate you being with us 
again.

            STATEMENT OF MAURICE P. MCTIGUE, Q.S.O.

    Mr. McTigue. Thank you very much, Mr. Chairman. Mr. 
Chairman, what I am seeing with this piece of legislation is 
something that I would call a continuum that derives from the 
passage in 1993 of the Government Performance and Results Act. 
What that act did was require that agencies start to identify 
results in terms of public benefits produced with the money 
expended on programs. And then we saw OMB starting to use that 
information in its PART, its Program Assessment Rating Tool, to 
decide whether or not programs really were effective.
    Now I think we are moving to what I would call the next 
stage, and that next stage is to start to look at outcomes. 
Say, in the area of literacy, let us look at all of the 
programs on literacy at the same time and see which of them are 
most successful at making people literate; then make some 
assessments about whether or not if we invested more heavily in 
those that were most successful at making people literate, we 
would get a much greater public benefit.
    The issue in my mind is certainly not about cuts. The issue 
is about benefits. Can we maximize the public benefit in each 
of these areas, so that we do more for the people than we are 
currently, and maybe we can do it with the same number of 
resources.
    Mr. Chairman, I spent 10 years as an elected Member of 
Parliament in New Zealand, 4 years as a Member of Cabinet, and 
4 years as an ambassador. During my period in Parliament and as 
a Cabinet Minister, one of the things that I was responsible 
for was some of this kind of reorganization.
    And this is an actual case: As Minister of Labor, I had 34 
programs that were designed to help people back into the work 
force. When we assessed those programs on how effective they 
were at getting people back into work, we found some of them 
were highly successful, some of them moderately successful, and 
some of them did very little at all.
    By looking at those programs and identifying the four most 
effective programs and putting the resources into those 
programs, we were able to get 300 percent more people into work 
for the same quantity of money. Those are benefits we can't 
afford to give away.
    We did an examination here in the year 2000, and there is a 
report here on it, a research project that the Mercatus Center 
did, and we looked at vocational training programs in the 
United States under the same kind of liens. You currently spend 
$8.4 billion on those programs, and you get 2.4 million people 
into work.
    Of the 45 programs that are devoted to vocational training, 
if you picked out the three best programs, and you invested 
that resource in those programs, you would get 14 million 
people into work for the same quantity of money. Or you could 
maintain the current public benefit of 2.4 million people into 
work and free up $6 billion to spend on a higher priority. 
Those are choices that should be placed in front of Congress as 
options in my view.
    And what you should be getting from results commissions are 
options, well-researched and well-thought out. A legislature is 
not the place to do research. A legislature is the place where 
you make choices between different options, and that those 
options are soundly based and well-researched by the time that 
you get them.
    Can I just spend a moment or two now talking about what I 
see as the role of the sunset commissions because I see it 
slightly differently to Mr. Johnson? I see it more in the 
light--sorry, I didn't intend the pun--of Paul Light's comments 
that there needs to be an examination of organizations, and 
certainly a wise manager constantly looks at the organizations 
that he or she uses in managing their enterprise to see if they 
are capable of doing the job.
    One of the things that is not happening in the American 
Government at the moment is that there is nobody who is 
responsible for monitoring capability. If something went wrong 
with FEMA, and I am not sure that it did, but if something went 
wrong with FEMA in Louisiana, it was that it had lost some of 
the capability that it previously had to respond to natural 
disasters. And that might have been because of the emphasis 
that it was placing on being able to recover from terrorist 
acts. But there was a capability lost there in all probability.
    In my view, something like the Office of Personnel 
Management should shift from thinking about itself as the 
manager of the Federal work force and think about itself in 
terms of: Do we have the capability in each of the government's 
organizations to be able to do this job effectively? The 9/11 
Commission made it clear that one of the intelligence failures 
was something as simple as the FBI and the CIA not having 
translators who could convert the raw intelligence into stuff 
that analysts could work with. If there was somebody watching 
for capability, that weakness would have been picked up, and 
maybe September 11th wouldn't have happened.
    A sunset commission that could look at organizational 
competency, to look at its guiding statutes and see whether or 
not those statutes were relevant to contemporary society, in my 
view could do a great deal to improve the competency of the 
government in delivering better services to the public at 
large.
    If we were to do that, then it doesn't make sense just to 
do it once and think that it is done for all time. It is 
something that you have to do constantly; go back and look and 
your organizations and see that they are rightly structured to 
meet the needs and demands of today's society. If that had been 
happening in my view, we wouldn't be having the current debate 
that we are having in the United States about poverty. We would 
have solved that problem a long time ago.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McTigue follows:]

    [GRAPHIC] [TIFF OMITTED] T5616.019
    
    [GRAPHIC] [TIFF OMITTED] T5616.020
    
    [GRAPHIC] [TIFF OMITTED] T5616.021
    
    [GRAPHIC] [TIFF OMITTED] T5616.022
    
    [GRAPHIC] [TIFF OMITTED] T5616.023
    
    Mr. Porter. Thank you very much for your testimony.
    Mr. Shull.

                  STATEMENT OF J. ROBERT SHULL

    Mr. Shull. Thank you, Mr. Chairman and members of the 
subcommittee.
    We have just heard that organization should be our focus, 
not programs. I think that neither focus is the correct focus. 
The correct focus is whether or not public needs are being met. 
The word tool has been used by several witnesses here, and I 
think it is a good word because public institutions are the 
tools that we use to act collectively in order to address the 
needs that we cannot meet as isolated individuals, needs like 
building schools, building levies, checking private behavior 
like pollution that causes harm for innocents.
    Now the problem here with this sunset and reorganization 
approach is that it does place its focus on organization, and 
that is entirely the wrong focus because it is as though we are 
looking at government management and government programs 
without any regard for the social context in which they were 
created, without any regard for any outside information 
whatsoever.
    That is just not the way that we should be looking at 
things because government programs exist for a reason; they 
exist to meet our public needs. That is the reason why some of 
the themes that have come up here have taken on such a wrong 
focus. When we take public needs as the bottom line, it turns 
all of these arguments on their head.
    Let us look at duplication. Now there are some programs 
that are effective on a national basis in the aggregate, but 
there are some populations that are so subordinated, 
disadvantaged, or discriminated against that they cannot enjoy 
the full benefit of those programs, even when they are truly 
effective nationwide.
    And that is why Congress sometimes needs to create 
duplicative programs, the Appalachian Regional Commission, for 
example. The severely disadvantaged populations of Appalachia 
have not been enjoying many of the benefits that come from the 
EPA, from welfare programs, from all of the programs that 
should be addressing their needs. That is why Congress created 
the Appalachian Regional Commission: to coordinate resources, 
to target new resources, to serve that population.
    I think the same is true for women's health programs. When 
the standard is the average male, our studies and our health 
programs are not going to serve women very well. That is why 
Congress has created special programs targeting women's health, 
targeting breast cancer. They may, on their face, look to be 
duplicative, but they are duplicative for a reason.
    I think what is duplicative is taking on, adopting new 
institutions and new approaches that duplicate what we can 
already do and already do effectively. Congress, for example, 
can already reorganize government when it needs to do so and 
prove, with the creation of the Department of Homeland 
Security, that it can do so swiftly when the need arises.
    I just heard that apparently legislatures are not the place 
for research, but the fact is this legislature has an enormous 
capacity for research. The GAO is unparalleled in the quality 
of the studies that it conducts, and this Congress has the 
ability to convene hearings, to bring the public in, and to 
bring experts in to combine expertise and democratic 
participation, so that we can arrive at the best solutions for 
meeting public needs.
    Multiplicity, we have heard about. There is a shared number 
of programs that serve the homeless, that serve the same 
issues. Think of an issue like foster care. There are many 
programs that serve foster care. Abused and neglected children 
in foster care benefit from the Title 4E Entitlement; from 
Title 4B Adoption Assistance, if they are that lucky; from the 
Chafee Independent Living Program, if that is the outcome for 
them; they benefit from Medicaid; they benefit from many non-
profits, which are created by and thrive because of the tax 
code administered by the Tax Exempt Organizations Office in the 
IRS. It goes on and on and on.
    I think we couldn't say that the sheer multiplicity of the 
programs serving foster children somehow means that we are 
doing too much for foster children, that we are devoting too 
many resources because I can tell you as a former child 
advocate, that is just not the case.
    And when it comes to waste, I think that forcing programs 
to plead for their lives every 10 years is a waste because we 
will be forcing programs that we know, without a doubt, meet 
public needs and exist for a reason to make the case for their 
existence. We know we need Department of Education programs to 
help families put their children in college. We know that we 
need OSHA to keep workplaces safe. We don't need them to make 
the case for their continued existence.
    I see my time is up, and I would be happy to answer any 
additional questions.
    [The prepared statement of Mr. Shull follows:]

    [GRAPHIC] [TIFF OMITTED] T5616.024
    
    [GRAPHIC] [TIFF OMITTED] T5616.025
    
    [GRAPHIC] [TIFF OMITTED] T5616.026
    
    [GRAPHIC] [TIFF OMITTED] T5616.027
    
    [GRAPHIC] [TIFF OMITTED] T5616.028
    
    [GRAPHIC] [TIFF OMITTED] T5616.029
    
    [GRAPHIC] [TIFF OMITTED] T5616.030
    
    [GRAPHIC] [TIFF OMITTED] T5616.031
    
    [GRAPHIC] [TIFF OMITTED] T5616.032
    
    [GRAPHIC] [TIFF OMITTED] T5616.033
    
    Mr. Porter. Thank you very much. I would like to commend 
staff. I think you have put together a panel made of very 
diverse opinions, and I say that out of respect. It is a very 
valuable part of our debate today as I try to summarize some of 
the things that I have heard today about whether we should look 
at programs.
    I think Mr. Johnson said we should look at programs. I 
think Mr. Light said we should look at organizations. Mr. 
McTigue, I think you said we should look at capability. Mr. 
Shull, I think you said that we shouldn't have them forced into 
saving their lives every 10 years. And Mr. Schatz, you 
mentioned the Grace Commission.
    So having done a quick little summary, I would like to hear 
more about the Grace Commission. That was in the Reagan 
administration? Could you cover that for a moment, please?
    Mr. Schatz. Yes, Mr. Chairman. The Grace Commission was 
established in 1982. President Reagan established it upon 
Executive order, and he asked J. Peter Grace, who was then head 
of the Grace Co., W.R. Grace and Co., to lead this commission. 
They added about 2,000 volunteers, about 160 senior executives, 
and other leaders to examine the operations of the Federal 
Government.
    The report had 2,478 recommendations with 3-year savings of 
about $424.4 billion. A number of those recommendations were 
implemented by President Reagan by Executive order. Others went 
through Congress.
    Just some quick examples: BRAC itself was a recommendation 
of the Grace Commission; the public sale of Conrail was a 
recommendation; Civil Service reform; there is a long list. And 
of course, we have made recommendations for many other ideas to 
make the government more----
    Mr. Porter. Excuse me. That was initiated by President 
Reagan?
    Mr. Schatz. That was initiated by President Reagan in 
January 1982. The report was issued in June 1984, I think March 
1984 actually, and soon after that, Citizens Against Government 
Waste was established to followup on the implementation of 
those recommendations.
    Mr. Porter. Thank you.
    Mr. McTigue, back to your comments. Do we have the 
capability? How do you see Congress interacting with the 
capability portion with a sunset commission, or even the 
efficiency? How do we get to that point? I think that is 
actually very similar to saying: Is the program actually being 
run properly and is it needed? But let us talk about 
capability. Explain that a little bit for how Congress can get 
more involved in the capability aspects.
    Mr. McTigue. I think that one of the things that Congress 
should question executives about every time they come before a 
committee is: Do you actually have the capability to succeed at 
this task? For example, one of the critical questions that 
wasn't asked of the intelligence agencies was: Do you have the 
capability to be able to translate and utilize all of the 
information flowing in? And the answer was: No, they didn't. So 
there was a fatal flaw.
    One of the accountability provisions for executives should 
be that they have to account for the capability that their 
organization has now, that it needs in the future, and how they 
are going to be able to get there. Those are all in my view for 
somebody like OPM to be thinking about the issue of human 
capital, human capital being the capability of an organization 
to achieve its goals, and reporting to the President on a 
regular basis saying: This organization is falling behind in 
its capability needs, and it needs to do all of these things if 
it is going to be able to meet and carry out your agenda.
    Congress also should be saying the same to organizations. 
Have you got the human capital in place to be able to give you 
the advantage necessary to be able to complete all of those 
tasks as assigned to you? In my view, it is a new part of the 
management paradigm for people working both in the private 
sector and the public sector, but it is going to be an 
essential part of being able to complete tasks going into the 
future. And something like sunset commissions could have that 
as one of their charges when they look at an organization to 
see whether or not the capability was there to be able to carry 
out the particular agenda that was set.
    Mr. Porter. Thank you.
    Mr. Shull, you mentioned: Are the public needs being met? I 
think that is actually very similar to Mr. McTigue in the 
capabilities. If I understood you correctly, a program should 
remain because it was established for the right reasons and 
should continue. But don't you think that we need to have a 
little more oversight in some of these programs that maybe have 
outlived their necessity, and we need to have a review of that 
program and that organization?
    Mr. Shull. I think that oversight is the key word. These 
proposals don't really create the oversight that we need. Mr. 
McTigue just said, or said earlier in his statement, that when 
he was considering capabilities as the bottom line, he 
suggested that something like OPM should be a single office 
that could ask whether or not all of our agencies have the 
capabilities that we need.
    I just don't think that these are sort of generic questions 
that can be asked by neutral generalists. I just don't think 
that is possible. As I think members of the House, in 
particular, know because of their expertise that they gain 
through the committees of jurisdiction, that it takes a long 
time to learn, to master a body of knowledge in order to 
exercise the oversight that is necessary. This is not a neutral 
task that a sunset commission, that might hear claims of 
programs that inspect grain versus programs that protect abused 
and neglected children, has the expertise to do across the 
board. So I think that those are different questions.
    Now when it comes to asking whether or not programs have 
outlived their usefulness, I think I would like to suggest that 
we have that now through the reauthorization process. Agencies 
like take the National Highway Safety Administration, it comes 
up for reauthorization every 5 years. Congress has the 
opportunity----
    Mr. Porter. It is supposed to come up every 5 years. I just 
thought I would add a little editorial.
    Mr. Shull. Right, right. And Congress, actually on a year 
to year basis through the budget and appropriations process, 
has the ability to cut things off whenever Congress determines 
that the need is no longer there. I think that in some cases we 
will find that the needs never go away. We never stop having a 
need for safe workplaces for the men and women of America who 
work for a living.
    So I think that we will never run out of a need for the 
Occupational Safety and Health Administration. I think that 
there are some needs. Education, we will always need a 
Department of Education. There are some needs that are eternal.
    Now, the ways in which those needs manifest themselves, and 
the ways in which programs need to address those needs, may 
change over time. That is something that can be addressed on an 
ongoing basis. The White House certainly doesn't need a 
commission or this sort of fast-track take it or leave it 
process to send proposals to Congress. The White House 
certainly didn't need this process when it suggested the 
creation of the Department of Homeland Security. I think we 
have processes in place right now, processes that work.
    Mr. Porter. Thank you. I appreciate it.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Shull, I was somewhat intrigued with your notion that 
duplicate programs may serve a purpose and just because they 
are duplicate, that does not necessarily mean that they are not 
of value. I guess I was thinking of that because of the fact 
that I have been trying to deal with the specific needs of a 
population group called African American males, as an example.
    Mr. Shull. Right.
    Mr. Davis of Illinois. Generally, when I come to a hearing 
room like this, there are very few, and I hardly ever see 
African American males in any substantial numbers. Or when I go 
to college and university campuses and look at the population 
there, I see very few. Then, of course, I go some other places, 
and I see quite a few, such as the prisons and jails and 
traffic courts and unemployment lines.
    Yet, there are certain kinds of programs that are designed, 
for example, to provide opportunities for people. And yet, 
somehow or another, those programs, unless they are 
specifically designed and have some special components, will 
often times miss this population group. I am wondering, could 
you expound a bit more on your rationale for this theory that 
duplication need not necessarily mean that you have what you 
need, or you don't need something special in some instances 
because of all of the factors that make up an environment?
    Mr. Shull. Right. I think it is actually one of the 
problems that is endemic to any program design because programs 
are designed with a standard in mind. Unfortunately, that 
standard isn't always representative of the full range of a 
population that is supposed to be served. That is why we see it 
again and again and again. That is why we see recurring needs 
for programs that target women's health, programs that target 
specific populations like rural populations, very specific 
populations like Appalachia.
    And that is why this neutral approach or this general 
approach, that somehow we can adopt certain standards like 
duplication, they have one meaning in every context. Or we can 
look at activities like management and somehow managing grain 
inspectors and managing programs that benefit foster children, 
somehow that is all the same activity.
    Every time we take these sort of neutral government-wide 
approaches, we run the risk of reinscribing these same old 
problems. We could always run the risk of resubordinating the 
very populations who are supposed to be benefiting from these 
targeted, or supposedly duplicative, programs because they were 
subordinated in the first instance.
    We run the risk of recreating the very problems that we 
have been trying to solve over the years, as actually you just 
mentioned when it comes to poverty programs. We were apparently 
on the right track, getting something accomplished, and now we 
need new programs targeted at the poor because we are just not 
doing the job any more, and because we got rid of the programs 
that were in place.
    Mr. Davis of Illinois. I also saw the same thing sort of in 
how we used to approach what was called community health, where 
we had outreach workers and people who would go out and try and 
bring people in because somehow or another people were not 
coming to the clinics and they had never any experiences.
    All of a sudden, that became passe. We were spending too 
much money. And yet, when we look at health status, we see a 
tremendous difference with that population group in terms of 
what was happening with them when the outreach was being done, 
and we actually saw the reduction in infant mortality, and we 
actually saw reduction in certain disease entities among that 
population group.
    I wanted to quickly, though, Mr. Light, ask you. When we 
think of the executive branch, which is designed to propose, 
and then the executive branch dispose. Do you think that there 
might be opportunity for greater interaction in the process of 
development between the two as we look at what might be taking 
place with programs and the extent to which they have been 
effected?
    Mr. Light. I think that Congress has to be a partner in the 
conversation about performance assessment. The Achilles Heel to 
the results commission is the PART, the rating tool that OMB 
has developed, and I have not yet seen a credible evaluation of 
how good PART is at getting to the issue of performance. I 
would guess that it is uneven, and I would urge this 
subcommittee to ask the Government Accountability Office to 
take a look at how good the measures are and how they are done.
    I would guess that they are uneven across the departments 
if they represent the unevenness that we have seen in the 
Government Results Act implementation that the Mercatus Center 
has been so effective in documenting. I am a believer in 
congressional participation and oversight, and I think you 
ought to get more deeply involved in these questions about how 
we evaluate performance.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Chairman.
    Mr. Porter. Thank you.
    Congresswoman, questions?
    Ms. Norton. Thank you, Mr. Chairman. I appreciate all the 
testimony, and the qualifications, and the several options you 
have brought to the table.
    Local governments have accepted the beast that is the 
Federal Government. In many ways you see so-called one stop 
shopping places. If you go in some of those places, you would 
have a hard time figuring out how all of those things can be 
consolidated.
    You look at the tragic growth of children who are raised 
only by their mothers, and you know that some of what she gets 
and must have to sustain her children must come from HHS. Some 
of it must come from the Labor Department because you want her 
to become a productive citizen. Some of it must come from the 
Education Department. I hope more of it would.
    Most of these women are not even, under the present 
legislation, allowed to go to college if they are ready, so 
that they can do something other than the minimum wage work 
they have. I will tell you if you try to sit down and to 
consolidate these programs, I think you would have an awfully 
hard time.
    At the level where the programs operate in the States, they 
have begun to understand that they are dealing with a human 
being, and that is not what the Federal Government is there 
for. The Federal Government is essentially there to provide the 
States and locality with what it takes to deal with human 
beings.
    I have just a couple of questions. Mr. Light, there is a 
certain kind of appeal in your proposal, although one would 
wonder about such a proposal in the Congress today. But there 
certainly is a lot of appeal because it says: Look, let us look 
at the whole ball of wax. But it is so comprehensive. The 
government has become so vast.
    One is left to wonder whether or not, even under the best 
of circumstances, such a comprehensive review would allow 
people to get much beyond the boxes to reach the substance of 
these programs. What is really appealing about what the 
administration says it wants to do is to look at these programs 
to see what works or doesn't work. Of course, it doesn't tell 
us much about how they do that.
    At least, there is some assessment going on here. If you 
are looking at the whole government, you are hardly in a 
position to go bit by bit. What is it? We have how many 
employees? We have 3 million; 2 million? A lot of them are in 
this city, I will tell you that much.
    Mr. Light. That is if we can count them all.
    Ms. Norton. In any case, have you considered the difficulty 
of getting into the nuts and bolts of what makes government 
effective, if what you are looking at is everything there all 
at one time?
    Mr. Light. Well, let me first say that your notion that the 
modern caseworker is kind of a self-contained results 
commission is quite accurate. The best caseworkers are doing 
this analysis all the time to figure out what works and where 
they can get their clients the most help.
    The issue about comprehensiveness and discreetness, the 
balance between the two, is the following, that there are some 
factors that clearly effect program performance that are, in 
fact, government-wide. Earlier this week, a colleague of mine 
at Princeton released a report showing that the PART scores of 
bureaus heading by political appointees--and I am not talking 
about Democrats versus Republicans; I am just saying in the 
bureaus headed by political appointees--were significantly and 
statistically lower than the PART scores headed by career civil 
servants.
    Now, we have to drill into that more deeply to see whether 
or not that is, in fact, a verifiable predictor of agency 
performance, but it would lead us toward addressing some 
comprehensive issues surrounding the Presidential appointments 
process, which your committee as a whole and predecessors in 
this room, subcommittees, have struggled with, how to improve 
this appointments process that is so sluggish and difficult to 
navigate. You are trying to balance, and I think a 
comprehensive look at government every 50 years isn't a bad 
idea. Not a bad----
    Ms. Norton. It is not a bad idea. You didn't think you 
would have to break it down from there to go----
    Mr. Light. You have to break it down. You have to go down 
into mission. So you start with organization, but you are 
eventually led to mission. What is the mission of government? 
Could we do things better if we eliminated duplication, or is 
the duplication in fact intentional and purposeful? I would 
argue, and I haven't seen a good, aggressive study of this, 
that a great deal of duplication in government is quite 
unintentional and harmful, but it would be interesting to 
actually take a look at it.
    We have a bias against duplication that our colleague from 
OMB Watch is rightfully arguing may actually be beneficial, not 
our bias, but the duplication. I think you have to drill down 
after you look comprehensively at the specific missions that we 
are aiming to achieve.
    Ms. Norton. I would like to ask Mr. Schatz a question. He 
speaks about the independence that the commissions would have. 
Of course, the commissions are still majority party commissions 
in a country which is very evenly divided, where there is a 
great distrust across party lines with frankly, a huge 
polarization even about whether government should exist or not.
    Let us assume that, for the moment, you somehow get a 
commission that would have the confidence, enough of the 
confidence of the government, that one would want to listen to 
its recommendations. Then you say, sunset and results 
commissions--I am looking at your page unnumbered, but it is in 
your testimony--like BRAC, ``such a commission would have its 
recommendations and proposals subject to review by Congress 
before they could be adopted.''
    Now, Mr. Shatz, when in fact, let us say our subcommittee 
comes to the full committee and even to the floor, in fact, 
there often are changes. There are amendments, even amendments 
proposed by the minority.
    Do you think that the process we go through where somebody 
may have a difference, even a small difference, that she would 
like to offer as a change, but was told sorry, you have to vote 
against the whole thing or for the whole thing. I didn't know 
what in the world you meant when you said people like me, or 
somehow would be sent to review by Congress before they would 
be adopted, since in ordinary parlance we do usually mean that 
we have something to say about the guts of the proposal.
    That is how compromises get done here. In order to keep the 
whole thing from going down, Republicans and Democrats go at 
various bits and pieces. And guess what? Something that neither 
of us really wanted, but this is a vast country with people 
thinking in thousands of different ways, we have somehow 
succeeded in getting a bill out of it. Would you really want 
Members of Congress who might indeed be willing to vote for 
such a proposal be forced to vote against the whole thing, 
rather than have some opportunity to offer a change that the 
other side might take?
    Mr. Schatz. Ms. Norton, the way this particular legislation 
is set up, and the up or down, what I was referring to as the 
sunset commission, there is a lot more opportunity for input 
there because you are not forced to vote up or down on the 
sunset commission's recommendations. In the results commission, 
that is the case. And I think I tried to make that clear in my 
statement. If I didn't, then I am making it now.
    Ms. Norton. I know I am reading from it. However, sunset 
and results commissions would not have unilateral power to 
cancel or modify questions or programs alone. ``Like the Grace 
Commission and BRAC, such a commission would have its 
recommendations and proposals subject to review by Congress 
before they could be adopted.'' Yes, subject to review like 
everybody else who reads the newspapers. The only difference is 
we could say yea or nay to the whole thing.
    It is a terrible, terrible misunderstanding of how this 
body works because the only way we are able to get 
bipartisanship on really hard things is to keep talking back 
and forth until each side gives up a little, takes a little. 
But when you go to up or down, you see the polarization we have 
in this country now. All this does is up the ante 10,000-fold 
because it says: In your face, take it or leave it; I don't 
care whether you want small changes or large changes. The only 
way we can get something done--I remember what you said, get it 
done.
    Well, at least we got it done. Because you folks just can't 
get it done later for democracy, and this is the way the House 
and the Senate have worked for 200 years, absolutely 200 years. 
We give up on it. We are going to a procedure which allows for 
no compromise. There is not a single piece of legislation that 
would ever get out of here without compromise, and I don't know 
why any piece of legislation should ever get out of a 
legislative body which governs a country as complicated as this 
without some compromise from the legislative branch.
    I would like to hear if you think that there is some way 
that we can modify this, so that you wouldn't be faced with 
that up and down choice, but could go with what the majority 
wants some of the time, and not be asked to go with it all of 
the time or none of the time.
    Mr. Schatz. We just did that on BRAC.
    Mr. Porter. Excuse me, we have about 8 minutes left.
    Mr. Schatz. OK, I will be very brief. We just did that on 
BRAC. As you mentioned earlier, it was controversial, but it 
was done. The point here is to extend that to other 
opportunities to reform the government, and that is what this 
is intended to do.
    Ms. Norton. I understand what we are doing here. I posed 
you a question, and you did not answer. I posed you a question 
about our system, and compromise, and how we get legislation 
done here. I posed you a question about Red States and Blue 
States. I posed you a question about how to bring people 
together. And you tell me, well, we did it in BRAC.
    You know what? BRAC was the most contentious process of all 
time, and the notion that is the model for how we should run 
the United States of America. If that is your answer, thank you 
very much.
    Let me just go on.
    Mr. Schatz. I didn't say that is how we should run the 
United States of America, Ms. Norton.
    Ms. Norton. Well, we are running it----
    Mr. Schatz. I said, this is a particular issue that needs--
--
    Ms. Norton. It is not a particular issue. Virtually any 
programs could be in it. I just have to go on. He says we have 
8 minutes.
    I have a question for Mr. McTigue because I heard the hint 
of a compromise. Forgive me for looking for things that, ways 
to make common cause because of members who might not agree 
with me on everything. You said something about, and I looked 
for it in your testimony and didn't see it, how Congress should 
be given options.
    Of course, with those options and the explanation for those 
options, it should be asked to decide from those options, it 
does seem to me that would be terribly helpful. We often have 
to get those options from hearing testimony from various people 
who come before us. But the whole notion that somebody, let us 
take it that one of these commissions, has studied something, 
and here are a half dozen options. They might even say which 
ones they like and which.
    But the notion that somehow you don't weed Congress out of 
the process might be more appealing to people on both sides of 
the aisle. I would just like to have a little more explanation 
of that as some kind of perhaps middle ground between the in 
your face, up and down process that is being offered here.
    Mr. McTigue. My response to that is that Congress is master 
of its own destiny at all times. As Members of Congress, you 
can vote for and against resolutions.
    But I would imagine that when you actually get a report 
from a commission, a results commission, it is not just a one 
line report, saying these things are eliminated and these 
things are kept. It should have with it a great deal of detail 
that explains the thinking of the commissioners when they 
arrived at that particular resolution. It is quite within the 
hands of every Member of Congress to personally introduce 
legislation themselves, to implement part or to reject some of 
the recommendations that are made by the commission.
    In addition to that, the budget process provides 
Congressmembers with the same option at a later date to decide 
to vote for or against appropriations, to increase 
appropriations, or to refund something that was previously 
defunded. It happens every year.
    In fact, at the moment, Congress has in front of it about 
154 recommendations from OMB in the budget that would change 
the traditional funding of programs. A number of those Congress 
has already changed. So in my view, this is a resolution that 
you would see that is based upon research that says: In the 
view of the commissioners, this will produce for Americans a 
better result than the current mix of programs that we are 
funding.
    You can agree with that, or you can disagree with it. You 
can pick parts out of it later on and decide that you are going 
to implement it. It is a process that, I think, moves you 
forward because it brings the debate into sharp relief in terms 
of where are you going to get the greatest benefits.
    In addition to you talked about BRAC a lot during the 
commission's hearings this afternoon, you also use for trade 
negotiations fast-track procedures that give to Congress 
exactly the same choice. And I think that you put together some 
deals with countries around the world that would never have 
gotten done if you didn't have that process. So it has been 
valuable in those circumstances, and it has allowed Congress to 
be able to make progress in improving relationships with many 
countries that wouldn't otherwise have been able to make that 
advance.
    Ms. Norton. It has been valuable in those processes, and I 
think those are appropriate processes to use. The real question 
is, is this up and down process the most appropriate process 
for other programs?
    Thank you, Mr. Chairman.
    Mr. Porter. Thank you. We appreciate it. And to the full 
panel, we appreciate your input, very diverse, but that is what 
the process is all about.
    In summary, I know there are some concerns about the 
involvement of Congress. I think Mr. McTigue is right, that the 
commission provides a lot of analysis for Congress to work 
with. But separate from the congressional body, the American 
people are demanding today, demanding that we reduce wasteful 
spending. They are demanding that their hard-earned, their 
dollars--the tax dollars are theirs--are spent wisely.
    They also are demanding, now more than ever, that it be 
delivered in the most efficient, the most up to date in 
technology and in efficiency, that we have ever seen in the 
history of this country. They are demanding it, and they should 
expect it. That is our job as Congress, to make sure that we 
look at these programs and weigh the balance of what is a 
duplication.
    And Mr. Shull, you may be right; some are probably 
duplication by design, but others are duplication by accident 
and by the system itself. We want to make sure that those 
foster kids get the best they can. We want to make sure that 
the least among us get the services they deserve. But we don't 
want to waste any more of our constituents' tax dollars and 
make sure they are done properly.
    This commission does not take Congress out. It is an 
ability for Congress to work with the administration, whatever 
that administration is at the time, to come up with the best 
and the most efficient, but also the most capable, delivery of 
systems to the American people.
    So I thank you all very much. It is really historic in that 
we are now moving and looking at legislation that has been 
passed in the past that has worked quite successfully, and I 
hope that we are able to move this forward. So thank you all 
very much for being here, and we appreciate future input. We 
appreciate it.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
